HHS/OIG-Audit--"Empire Medicare Services: Audit of Medicare Claims by Podiatrists and Optometrists for Comprehensive Nursing Facility Assessments for Calendar Years 1995 through 1998, (A-09-00-00090)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Empire Medicare Services: Audit of Medicare Claims by Podiatrists and
Optometrists for Comprehensive Nursing Facility Assessments for Calendar Years
1995 through 1998," (A-09-00-00090)
August 29, 2000
Complete
Text of Report is available in PDF format (1.36 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of our audit of claims by podiatrists
and optometrists for comprehensive nursing facility (CNF) assessments during
Calendar Years 1995 through 1998. We found that podiatrists and optometrists
were not licensed to perform CNF assessments. Nonetheless, podiatrists and
optometrists submitted claims for these services totaling $4,821,810 and $517,461,
respectively. Empire paid $2,905,205 and $320,896 for their claims. We recommended
that Empire: (1) issue a reminder to podiatrists and optometrists not to bill
for any service outside of the scope of their medical licenses, such as CNF
assessments, and (2) implement computer edits to prevent payment of CNF assessments
claimed by podiatrists and optometrists. Empire representatives agreed with
our audit findings and recommendations, and have implemented the recommended
corrective actions. We have requested that Empire not seek recovery of the
overpayments at this time as we are still evaluating the issue.